IN THE
SUPREME COURT OF THE UNITED STATES
No.
JERRY W. GREEN, JR.,

Petitioner
v.

UNITED STATES OF AMERICA,
. Respondent
MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS
Petitioner Jerry W. Green, Jr., by and through his undersigned counsel, asks
leave to file the petition for a writ of certiorari without prepayment of costs and to
proceed zn forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in
the following courts:
1. The United States District Court for the Middle District of Florida
2. The United States Court of Appeals for the Eleventh Circuit
The undersigned was appointed to represent the Petitioner pursuant to 18

U.S.C. ยง 3006A in both of the above-mentioned courts.
Respectfully Submitted on this 26th day of April 2021,

dns t Sophuth

4) IU

NE F. BORGHETATI, ESQ.
12211 49th St. N., Ste 1
Clearwater, FL 33762-4300
Florida Bar # 0843385
Telephone: 727-502-0300
Facsimile: 727-502-0303
E-Mail: aborghetti@aol.com
Counsel of Record for Petitioner

   

 

Green y. United States
Motion for Leave to Proceed in Forma Pauperis
Page 2 of 2
